OIG Investigative Reports, Greenbelt, MD December 16, 2011 - Former Charles County Public School Employee Sentenced to Prison for Theft Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
United states Attorney
District of Maryland
Rod J. Rosenstein
United States Attorney
Vickie E. LeDuc
Public Information Officer
36 S. Charles Street
Fourth Floor
Baltimore, Maryland 21201-2692
410-209-4800
TTY/TDD:410-962-4462
410-209-4885
FAX 410-962-3091
Vickie.LeDuc@usdoj.gov
December 16,2011
FOR IMMEDIATE RELEASE
http://www.justice.gov/usao/md
CONTACT AUSA VICKIE E. LEDUC or
MARCIA MURPHY at (401) 209-4885
FORMER CHARLES COUNTY PUBLIC SCHOOL EMPLOYEE SENTENCED TO
PRISON FOR THEFT SCHEME
Stole Computers, Apple iPods, and other Technology Equipment Purchased Using Federal
Funds Intended for the Needs of School Children
Greenbelt, Maryland - U.S. District Judge Roger W. Titus sentenced Rhayda Barnes-
Thomas, age 41, of Accokeek, Maryland, today to 27 months in prison, followed by three years
of supervised release, for theft involving a federal government program, in connection with a
scheme to use federal funds received by her school employer to buy technology items for herself,
her family and friends. Judge Titus also ordered Barnes-Thomas to pay restitution of
$115,313.90.
The sentence was announced by United States Attorney for the District of Maryland Rod
J. Rosenstein; Steven D. Anderson, Special Agent in Charge of the Mid-Atlantic Region of the
Department of Education - Office of Inspector General; and Charles County Sheriff Rex Coffey.
According to Barnes-Thomas’ plea agreement, the U.S. Department of Education
provides federal funding, known as Title I grants, to public school districts with enrollment of
low-income families to help ensure that all children meet appropriate academic standards.
Typical uses of Title I funding include purchasing equipment for classroom education. According
to the statement of facts, since approximately 2006, Barnes-Thomas has been the Title I
coordinator for the Charles County (Maryland) Public Schools (the County Schools), assigned to
manage the County Schools’ Title I funding, including overseeing the purchases of technology
equipment for use in classrooms paid for with federal funds.
Barnes-Thomas admitted that between 2009 and January 2011, Barnes-Thomas stole
more than $5,000 of property purchased using federal funds. According to her guilty plea, in
October 2010, school officials began investigating missing computers belonging to the County
Schools that had been purchased using Title I funds. Shortly thereafter, senior school officials
performed an audit which revealed that Barnes-Thomas had used Title I funds to purchase
multiple Nintendo Wii video game consoles, Nintendo Wii games, Sony PlayStation 3 consoles,
Apple products (including iPods, iPads, and Macbook computers) and televisions. Documents
purporting to contain signatures of Barnes-Thomas’ supervisor approving these purchases had
been forged.
On June 21, 2010, Barnes-Thomas sold an Apple iPad that had been purchased with Title
I funds to her hairdresser for $200 and gave another Apple iPad purchased with Title I funds to
her daughter, who in turn sold it for $100. An internal audit by the County Schools identified
more than 200 items purchased with Title I funds, at a cost of over $100,000, that are presently
unaccounted for. The vast majority of these items were purchased under Barnes-Thomas’ name.
According to statement of facts, in January and March 2011, law enforcement agents
executed two search warrants at the residence of Barnes-Thomas and a third search warrant at the
home of her daughter. Agents seized multiple items purchased using Title I funds that had been
inappropriately kept for personal use, including: an Apple MacBook Pro, two televisions, three
Apple iPods, a Nintendo Wii game system and a GPS device.
On March 11, 2011, Barnes-Thomas participated in a voluntary interview with law
enforcement in which she denied that the Apple Macbook computer found with a family member
was purchased with Title I funding. Barnes-Thomas admitted that the statement was false and
that she knew it was false when she made it. Barnes-Thomas also provided a receipt purporting
to establish that she had legitimately purchased one of the televisions seized from her home. In
fact, Barnes-Thomas had fraudulently altered the receipt and knew the receipt was altered when
she provided it to law enforcement agents.
United States Attorney Rod J. Rosenstein praised the Department of Education - OIG and
the Charles County Sheriff’s Office for their work in the investigation. Mr. Rosenstein thanked
Assistant United States Attorney Jonathan Su, who prosecuted the case.
Top
Printable view
Last Modified: 12/19/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov